Department of Homeland Security
   Ofﬁce of Inspector General


    FEMA's Progress in All-Hazards Mitigation 





OIG-10-03                              October 2009
                                                              Office of Inspector General

                                                              U.S. Department of Homeland Security
                                                              Washington, DC 20528




                                       October 19, 2009

                                           Preface

The Department of Homeland Security (DHS) Office of Inspector General (OIG) was
established by the Homeland Security Act of 2002 (Public Law 107-296) by amendment
to the Inspector General Act of 1978. This is one of a series of audit, inspection, and
special reports prepared as part of our oversight responsibilities to promote economy,
efficiency, and effectiveness within the department.

This report addresses the Federal Emergency Management Agency’s progress in leading
the Nation’s efforts to mitigate the risks of natural disasters, acts of terrorism, and other
manmade disasters, as mandated by the Post Katrina Emergency Management Reform
Act of 2006. It is based on interviews with employees and officials of relevant agencies
and institutions, direct observations, and a review of applicable documents.

The recommendations herein have been developed to the best knowledge available to our
office, and have been discussed in draft with those responsible for implementation. We
trust that this report will result in more effective, efficient, and economical operations.
We express our appreciation to all of those who contributed to the preparation of this
report.



                                       Richard L. Skinner 

                                       Inspector General 

Table of Contents/Abbreviations

Executive Summary .............................................................................................................1



Background ..........................................................................................................................2 


Results of Audit ...................................................................................................................5 


   DHS Efforts to Advance All-Hazards Mitigation............................................................5 

   Recommendations..........................................................................................................13 

   Management Comments and OIG Analysis ..................................................................14



   Coordinating an All-Hazards Mitigation Strategy.........................................................16 

   Recommendations..........................................................................................................20 

   Management Comments and OIG Analysis ..................................................................21



   Implementing an All-Hazards Mitigation Approach .....................................................22 

   Recommendations..........................................................................................................28 

   Management Comments and OIG Analysis ..................................................................29 


Appendixes
Appendix A: Purpose, Scope, and Methodology..............................................................30 

Appendix B: Management Comments to the Draft Report ..............................................31 

Appendix C: FEMA Risk Management Series Publications ............................................36 

Appendix D: National Planning Scenarios outlined in the National Response 

            Framework ..................................................................................................38 

Appendix E: Hazards Identified in Local Hazard Mitigation Plans for the State of 

            California, October 2007.............................................................................39 

Appendix F: Major Contributors to this Report................................................................40 

Appendix G: Report Distribution......................................................................................41 



Abbreviations
     DHS                 Department of Homeland Security 

     FEMA                Federal Emergency Management Agency 

OIG


Department of Homeland Security
Office of Inspector General

Executive Summary
                 The Federal Emergency Management Agency’s Mitigation
                 Directorate has made progress promoting multi-hazard mitigation
                 planning and publishing building design guidance for mitigating
                 multi-hazard events. Other Department of Homeland Security
                 components are advancing mitigation measures to reduce or
                 eliminate risks to critical infrastructure and key resources
                 throughout the Nation, but a coordinated risk-based, all-hazards
                 mitigation strategy mandated by the Post Katrina Emergency
                 Management Reform Act of 2006 has yet to be developed.

                 The Mitigation Directorate is well positioned to coordinate an all-
                 hazards mitigation strategy because of its extensive network of
                 mitigation partners and stakeholders at the federal, state, tribal, and
                 local levels. However, its ability to advance structural mitigation
                 projects beyond those that address natural hazards is limited
                 because (1) the Robert T. Stafford Disaster Relief and Emergency
                 Assistance Act does not require or incentivize state, tribal, and
                 local jurisdictions to prepare and implement hazard mitigation
                 plans that address technological or manmade hazards, although it
                 requires mitigation plans for natural hazards as a condition of
                 receiving federal mitigation assistance; and (2) the Federal
                 Emergency Management Agency’s Mitigation Directorate has only
                 one program, the National Dam Safety Program, to address a
                 technological hazard proactively, and none solely dedicated to
                 address manmade hazards proactively.

                 We are offering seven recommendations to advance the
                 development and implementation of a risk-based, all-hazards
                 mitigation strategy, along with a matter for congressional
                 consideration that, if enacted, would authorize FEMA’s Mitigation
                 Directorate to fund mitigation projects that proactively address
                 technological or manmade hazards and further incentivize state,
                 tribal, and local governments to prepare a hazard mitigation plan
                 that addresses all hazards inherent to their jurisdictions.




                     FEMA’s Progress in All-Hazards Mitigation 


                                      Page 1 

Background
             The primary mission of the Federal Emergency Management
             Agency (FEMA) is to reduce the loss of life and property and to
             protect the Nation from all hazards by leading and supporting a
             risk-based, comprehensive emergency management system.
             Mitigation, considered the cornerstone of emergency management,
             attempts to prevent hazards from developing into disasters
             altogether or reduce the effects of disasters when they occur. The
             mitigation phase differs from the other phases of emergency
             management in that it focuses on long-term actions to reduce or
             eliminate risk from hazards and their effects. Figure 1 is a graphic
             representation of the four phases in emergency management.

             Figure 1. The Four Phases of Emergency Management




             Hazards typically fall into three broad categories: natural,
             technological, and manmade. Natural hazards are generally
             associated with weather and geological events, such as a flood,
             hurricane, tornado, or earthquake. Technological hazards refer to
             human activities such as dam and levee construction or the
             manufacture, transportation, storage, and use of hazardous
             materials. Manmade hazards are typically associated with a
             criminal or terrorist attack using weapons such as an explosive,
             biological, or chemical agent. However, natural disasters can also
             be compounded by manmade and technological hazards to the
             extent that disaster losses could be prevented through mitigation.
             For example, Hurricane Katrina was both a natural and
             technological disaster because it involved the development of
             urban areas in naturally hazardous areas below sea level,
             compensated only partially by the construction of levees.


                 FEMA’s Progress in All-Hazards Mitigation 


                                  Page 2 

                              Principal federal statutes guiding disaster mitigation at the state
                              and local levels are the National Flood Insurance Act of 1968 (42
                              U.S.C. 4001 et seq.), the Robert T. Stafford Disaster Relief and
                              Emergency Assistance Act of 1988 (Stafford Act) (P.L. 100-707),
                              and the Disaster Mitigation Act of 2000 (P.L. 106-390). The
                              National Flood Insurance Act established the National Flood
                              Insurance Program, which encourages local governments to
                              mitigate flood risks through local regulation and financial
                              incentives. The Stafford Act is the basic disaster relief law of the
                              country and authorizes disaster programs implemented by FEMA.
                              The Disaster Mitigation Act is the most important federal hazard
                              mitigation law because it requires local governments to prepare
                              hazard mitigation as a precondition for receipt of federal hazard
                              mitigation project funds.

                              Mitigating a hazard can involve both structural and nonstructural
                              measures. Structural mitigation measures are generally
                              technology-based solutions such as building flood levees and
                              designing new or retrofitting existing buildings to make them more
                              resistant to hazards. Nonstructural mitigation includes policy-
                              based measures such as enacting land use ordinances that prohibit
                              residential development in flood-prone areas or requiring hazard
                              insurance for structures susceptible to hurricanes.

                              A study conducted by the Multi-hazard Mitigation Council1 of the
                              National Institute of Building Sciences determined that each dollar
                              spent on natural hazard mitigation saves society an average of 4
                              dollars. It concluded that mitigation is most effective when carried
                              out on a comprehensive, community-wide, long-term basis; and
                              that implementing coordinated mitigation activities over time is the
                              best way to ensure that communities will be physically, socially,
                              and economically resilient to future hazard impacts.

                              FEMA’s Mitigation Directorate, established in November 1993,
                              leads the agency’s mitigation efforts and manages a range of
                              programs designed to reduce future losses to homes, businesses,
                              schools, public buildings, and critical facilities from natural
                              disasters. It also provides building design guidance for mitigating
                              multi-hazard events and promotes multi-hazard mitigation
                              planning at the state and local levels.


1
  The purpose of the Multi-hazard Mitigation Council is to reduce the total costs associated with natural and other
related hazards to buildings by fostering and promoting consistent and improved multi-hazard risk mitigation strategies,
guidelines, practices, and related efforts.

                                    FEMA’s Progress in All-Hazards Mitigation 


                                                        Page 3

The Post Katrina Emergency Management Reform Act of 2006
(P.L. 109-295), enacted to address shortcomings identified in the
preparation for and response to Hurricane Katrina, enhanced
FEMA’s authority and gave it primary responsibility for the four
phases of comprehensive emergency management: preparedness,
response, recovery, and mitigation. FEMA’s activities include:

•		 Lead the Nation’s efforts to prepare for, protect against,
    respond to, recover from, and mitigate against the risk of
    natural disasters, acts of terrorism, and other manmade
    disasters, including catastrophic incidents;

•		 Coordinate the implementation of a risk-based, all-hazards
    strategy that builds those common capabilities necessary to
    prepare for, protect against, respond to, recover from, or
    mitigate against natural disasters, acts of terrorism, and other
    manmade disasters;

•		 Integrate the agency’s emergency preparedness, protection,
    response, recovery, and mitigation responsibilities to confront
    effectively the challenges of a natural disaster, act of terrorism,
    or other manmade disaster;

•		 Build the unique capabilities necessary to prepare for, protect
    against, respond to, recover from, or mitigate against the risks
    of specific types of incidents that pose the greatest risk to the
    Nation; and,

•		 Partner with state, local, and tribal governments and emergency
    response providers, with other federal agencies, with the
    private sector, and with nongovernmental organizations to
    build a national system of emergency management that can
    effectively and efficiently utilize the full measure of the
    Nation’s resources to respond to natural disasters, acts of
    terrorism, and other manmade disasters, including catastrophic
    incidents.




     FEMA’s Progress in All-Hazards Mitigation 


                      Page 4


Results of Audit

        DHS Efforts to Advance All-Hazards Mitigation
                 FEMA’s Mitigation Directorate recently published guidance on
                 implementing mitigation planning regulations that encourage the inclusion
                 of technological and manmade hazards in state, tribal, and local mitigation
                 plans. It also published a series of disaster publications called the Risk
                 Management Series that promotes the adoption of measures that will reduce
                 casualties and the physical damage to buildings and infrastructure from the
                 impact of conventional bombs; chemical, biological, and radiological
                 agents; earthquakes; floods; and high winds. Several other Department of
                 Homeland Security (DHS) components are advancing mitigation measures
                 as well to reduce or eliminate risks to assets primarily associated with the 18
                 critical infrastructure and key resource sectors.2 Collaboration among DHS
                 components that have a role in mitigation will facilitate the development
                 and implementation of a risk-based, all-hazards mitigation strategy, and
                 help identify resources within DHS that can be used to mitigate all hazards
                 identified in state, tribal, and local mitigation plans.

                          Multi-hazard Mitigation Planning

                          In July 2008, FEMA’s Assistant Administrator for Mitigation
                          issued Local Multi-Hazard Mitigation Planning Guidance, which
                          became effective on October 1, 2008, for all local mitigation plans
                          approved by FEMA.3 The purpose of the local mitigation plan is
                          codified in FEMA regulations, 44 CFR 201.6:

                              “The local mitigation plan is the representation of the
                              jurisdiction’s commitment to reduce risks from natural hazards,
                              serving as a guide for decision makers as they commit resources
                              to reducing the effects of natural hazards. Local plans will also
                              serve as the basis for the State to provide technical assistance
                              and to prioritize project funding.”



2
  The 18 critical infrastructure and key resource sectors are Agriculture and Food; Banking and Finance;


Chemical; Commercial Facilities; Communications; Critical Manufacturing; Dams; Defense Industrial 

Base; Emergency Services; Energy; Government Facilities; Healthcare and Public Health; Information


Technology; National Monuments and Icons; Nuclear Reactors; Materials and Waste; Postal and Shipping; 

Transportation Systems; and Water. 

3
  This guidance was one of three issued on the requirements of mitigation planning under Code of Federal


Regulations, Title 44, Part 201. Separate planning guidance was issued for state multi-hazard mitigation 

planning and tribal multi-hazard mitigation. 


                               FEMA’s Progress in All-Hazards Mitigation 


                                                 Page 5

                           It is important to note that although FEMA regulations and the
                           local multi-hazard guidance focus on mitigation planning for
                           natural hazards, FEMA supports jurisdictions that choose to
                           consider technological and manmade hazards as part of a
                           comprehensive mitigation strategy and developed guidance in
                           2003 on how jurisdictions can integrate technological and
                           manmade hazards into mitigation plans.4 FEMA also underscores
                           in guidance that mitigation plans should identify and assess
                           vulnerability of buildings, infrastructure, and critical facilities or
                           structures located within an identified hazard area, including
                           critical facilities essential to the health and welfare of the
                           population such as hospitals and emergency operations centers;
                           transportation systems such as airports, bridges, and tunnels;
                           lifeline utility systems such as potable water, oil, natural gas, and
                           electric lines; communication systems such as radio stations,
                           repeater sites, and base stations; and hazardous material facilities
                           that house explosives and toxins.

                           According to FEMA regulations, the purpose of mitigation
                           planning is for state, tribal, and local governments to identify the
                           natural hazards that impact them, to identify actions and activities
                           to reduce any losses from those hazards, and to establish a
                           coordinated process to implement the plan, taking advantage of a
                           wide range of resources.5 Hazard mitigation planning is the
                           process of identifying risk and vulnerabilities to hazards, followed
                           by a strategy that will reduce or prevent the effects of a hazard
                           from developing into a disaster. The final product is a mitigation
                           plan that provides the framework for implementing mitigation
                           projects that can also attract federal mitigation assistance and
                           grants to mitigate the hazard. The following process for hazard
                           mitigation planning is the same for natural, technological, and
                           manmade hazards:

                           •		 Identify and organize resources (create a planning team with
                               representatives from the public and private sectors, citizen
                               groups, higher education institutions, and nonprofits);
                           •		 Assess risk (identify hazards and assess losses);
                           •		 Develop a mitigation plan (identify mitigation actions that will
                               reduce the effects of the hazard and create a strategy to
                               prioritize them);



4
    Integrating Manmade Hazards into Mitigation Planning (FEMA 386-7).
5
    Code of Federal Regulations, Title 44, Part 201, §201.1, Purpose.

                                FEMA’s Progress in All-Hazards Mitigation 


                                                 Page 6

•		 Implement mitigation actions, evaluate results, and update the
    mitigation plan accordingly.

FEMA reported in March 2009 that all 50 states, 6 territories, and 33
tribal governments have approved mitigation plans, and 18,000 local
jurisdictions have approved local mitigation plans, covering
approximately 77% of the Nation’s population. Figure 2 illustrates
the status of mitigation plans as of January 2009.

Figure 2. Mitigation Plans




FEMA Mitigation Directorate’s Risk Management Series

FEMA’s Risk Management Series is a series of disaster
publications developed to protect the Nation’s building inventory
and its occupants. The objective of the series is to reduce physical
damage to structural and nonstructural components of buildings
and related infrastructure, and to reduce casualties from impact by

    FEMA’s Progress in All-Hazards Mitigation 


                     Page 7

                          conventional bombs; chemical, biological, and radiological agents;
                          earthquakes; floods; and high winds. The intended audience
                          includes architects and engineers, building owners, operators, and
                          managers, as well as state and local government officials working
                          in the building sciences community. Most of the mitigation
                          measures in the series are discretionary or voluntary actions that
                          individuals, businesses, and local governments can take to reduce
                          loss of life and property caused by multiple hazards. A list of
                          FEMA’s Risk Management Series publications is in appendix C.

                          Nine publications from the Risk Management Series focus on
                          manmade hazards. Several of the publications address multiple
                          threats and hazards. For example, FEMA publication 426,
                          Reference Manual to Mitigate Potential Terrorist Attacks Against
                          Buildings, explains that seismic standards for building components
                          are beneficial against the explosive blast of conventional bombs
                          and that landscaping can be used to mitigate the effects of wildfires
                          as well as improve detection of placed devices. FEMA
                          publications 424, Design Guide for Improving School Safety in
                          Earthquakes, Floods, and High Winds, and 577, Design Guide for
                          Improving Hospital Safety in Earthquakes, Floods, and High
                          Winds, highlight the pros and cons of designing new and
                          retrofitting existing hospitals and schools to withstand earthquakes,
                          floods, and high winds such as those from hurricanes.

                          Collectively, the Risk Management Series provides insight on how
                          to mitigate hazards associated with 10 of the 15 national planning
                          scenarios. The national planning scenarios represent a minimum
                          number of credible scenarios depicting the range of potential
                          terrorist attacks and natural disasters and related impacts facing our
                          Nation. They form a basis for coordinated federal planning,
                          training, and exercises. The scenarios covered include: explosive
                          attack, nuclear detonation, radiological attack, anthrax attack,
                          blister agent, toxic industrial chemicals, nerve agent, chlorine tank
                          explosion, earthquake, and hurricane. The five not covered are
                          plague, food contamination, foreign animal disease, cyber attack,
                          and pandemic influenza. Appendix D lists the eight key scenario
                          sets and 15 national planning scenarios presented in the National
                          Response Framework6 in January 2008.



6
 The National Response Framework is intended to present the guiding principles that enable all response
partners to prepare for and provide a unified national response to disasters and emergencies, from the
smallest incident to the largest catastrophe.

                               FEMA’s Progress in All-Hazards Mitigation 


                                                 Page 8

      New York City used FEMA’s Risk Management Series to
      facilitate the development of a hazard mitigation plan for the
      financial district when it was identified as a likely target for
      terrorism after the terrorist attacks in September 2001. The plan
      recognized that the real challenge for the financial district was not
      only providing security, but preserving a psychology of openness.
      Therefore, the mitigation strategy included both structural and
      nonstructural measures: (1) dispersing the necessary protection
      among streetscape elements such as specially designed perimeter
      barriers and controlling vehicle access by rotating road barriers and
      turntables; and (2) changing traffic patterns and rezoning the
      financial district to enhance public space and create well-used
      pedestrian plazas conducive to commerce. Figure 3 illustrates the
      mitigation measures undertaken in the financial district.

Figure 3. Mitigation Measures in New York City’s Financial District




      FEMA and state mitigation officials told us they view the Risk
      Management Series as a valuable but underutilized all-hazards
      mitigation resource for two primary reasons: (1) attention to
      mitigating manmade hazards has waned since the terrorist attacks
      on September 11, 2001; and (2) there is no federal funding source
      to incentivize building designers, engineers, and architects to
      implement the proposed mitigation measures. They suggest that
      FEMA encourage the adoption of the Risk Management Series by
      providing direct technical assistance to state and local mitigation
      officials, in addition to identifying all federal funding sources that
      can be used to adopt the mitigation measures advocated in the
      publications. According to FEMA’s guidance on Integrating
      Manmade Hazards into Mitigation Planning, mitigating
      technological and manmade hazards will require creative funding
      strategies that incorporate a variety of nontraditional sources
      because little federal funding is earmarked for state and local use
      in mitigating manmade hazards.

           FEMA’s Progress in All-Hazards Mitigation

                            Page 9
                           Other DHS Components Advancing All-Hazards Mitigation

                           A number of other DHS components have a role in advancing
                           hazard mitigation. FEMA’s Grant Programs Directorate
                           administers the Buffer Zone Protection Program, which provides
                           financial assistance to jurisdictions for mitigating threats and
                           vulnerabilities to critical infrastructure. The National Preparedness
                           Directorate uses the Citizen Corps program and the Emergency
                           Management Institute7 to educate the public and emergency
                           management professionals about mitigation. DHS’ Science and
                           Technology Directorate researches and develops new technology
                           to identify and mitigate vulnerabilities associated with the critical
                           infrastructure and key resource sectors. DHS’ National Protection
                           and Programs Directorate leads and coordinates a national program
                           to reduce risks to the Nation’s critical infrastructure and key
                           resource sectors. According to DHS’ Future Years Homeland
                           Security Program – Fiscal Years 2009–2013, $3.45 billion and 528
                           full-time equivalent employees have been dedicated to mitigation
                           in FY 2009.

                           FEMA’s Grant Programs Directorate administers 52 grant
                           programs; of these, it is programmatically responsible for 19. The
                           other 33 are programmatically managed by DHS components, such
                           as the Buffer Zone Protection program managed by the National
                           Protection and Programs Directorate. The Buffer Zone Protection
                           program supports planning, equipment, training, and exercise
                           requirements that help jurisdictions mitigate threats and
                           vulnerabilities to critical infrastructure. The 19 programs
                           administered and managed by the Grant Programs Directorate are
                           generally oriented toward prevention, protection, response, and
                           recovery.

                           FEMA’s National Preparedness Directorate oversees the
                           coordination and development of the capabilities and tools
                           necessary to prepare for terrorist incidents and natural disasters. It
                           provides strategy, policy, and planning guidance to build
                           prevention, protection, response, and recovery capabilities among
                           all levels of government. Two components within the directorate,
                           the National Integration Center and the Community Preparedness
                           Division, include mitigation as an objective. The National
                           Integration Center is responsible for developing, managing, and

7
 The Emergency Management Institute is the national focal point for the development and delivery of
emergency management training to enhance the capabilities of federal, state, local, and tribal governments.

                                FEMA’s Progress in All-Hazards Mitigation 


                                                  Page 10


coordinating homeland security training, education, exercise, and
lessons learned programs to ensure that the Nation is prepared for
all hazards. The Community Preparedness Division uses its
Citizen Corps program to engage, educate, and train Americans on
all-hazards emergency preparedness, planning, mitigation,
response, and recovery.

The National Preparedness Directorate is also responsible for
managing and implementing the target capabilities list initiative,
which contains 37 core capabilities jurisdictions need to be
prepared for disasters. The purpose of the target capabilities list
initiative is to establish a baseline to measure the Nation’s
preparedness for all hazards, including the 15 national planning
scenarios. Currently, the target capabilities list address four
homeland security mission areas: prevention, protection, response,
and recovery. FEMA anticipates a second phase will be released
in the future that will include a hazard mitigation capability. A
draft version of mitigation capabilities for the target capabilities
list has been developed. It is important that mitigation be included
because it is the only phase of emergency management that focuses
on long-term actions for reducing or eliminating risk from hazards
and their effects.

The Science and Technology Directorate, DHS’ primary research
and development arm, focuses on innovative ways to use advanced
technology to support homeland security efforts. It is composed of
six divisions, three of which have an explicit mitigation objective:
the Explosives Division; the Human Factors Behavioral Sciences
Division; and the Infrastructure and Geophysical Division. The
Explosives Division develops the technical capabilities to detect,
interdict, and lessen the impacts of non-nuclear explosives used in
terrorist attacks against mass transit, civil aviation, and critical
infrastructure. The Human Factors Behavioral Sciences Division
applies the social and behavioral sciences to improve detection,
analysis, and understanding of homeland security threats. The
Infrastructure and Geophysical Division focuses on identifying and
mitigating the vulnerabilities of the critical infrastructure and key
assets essential to our society.

The National Protection and Programs Directorate is responsible
for advancing DHS’ risk reduction mission, and its Office of
Infrastructure Protection is responsible for leading and
coordinating a national program to reduce risks to the Nation’s
critical infrastructure and key resources posed by acts of terrorism,

    FEMA’s Progress in All-Hazards Mitigation 


                     Page 11

                          and to strengthen national preparedness, timely response, and rapid
                          recovery in the event of an attack, natural disaster, or other
                          emergency. According to the National Infrastructure Protection
                          Plan,8 a sector-specific federal agency is to lead a collaborative
                          process for infrastructure protection for each of the 18 critical
                          infrastructure and key resource sectors. Within these 18 sectors,
                          DHS has designated more than 2,000 Tier I and Tier II critical
                          infrastructure/key resource assets. Tier I assets or systems are those
                          that if attacked could trigger major national or regional impacts
                          similar to those experienced during Hurricane Katrina. Tier II
                          assets are other highly consequential assets with potential national
                          or regional impacts if attacked.9

                          FEMA and other DHS component staff told us that developing and
                          implementing a risk-based, all-hazards mitigation strategy could be
                          facilitated through a more collaborative working relationship
                          among all DHS components and other federal agencies that have a
                          role in hazard mitigation. They explained that FEMA has done a
                          good job integrating an all-hazards approach to disaster
                          preparedness, but integrating an all-hazards approach to hazard
                          mitigation has been a challenge because FEMA’s Mitigation
                          Directorate has traditionally focused on mitigating natural hazards,
                          while other DHS components focus primarily on mitigating risk
                          and vulnerabilities associated with terrorism. Because the
                          expertise of personnel working in DHS components involved with
                          mitigation is also often specific to either natural hazard mitigation
                          or infrastructure protection from terrorism; it has been difficult for
                          management and staff to embrace an all-hazards approach to
                          mitigation.




8
  The National Infrastructure Protection Plan provides the unifying structure for the integration of a wide
range of efforts for the enhanced protection and resiliency of the Nation’s critical infrastructure and key
resources into a single national program.
9
  Government Accountability Office testimony, DHS Improved its Risk-Based Grant Programs’ Allocation
and Management Methods, But Measuring Programs’ Impact on National Capabilities Remains a
Challenge (GAO-08-488T), March 11, 2008.

                                FEMA’s Progress in All-Hazards Mitigation 


                                                  Page 12

         Conclusion

         State and local mitigation officials say they would benefit from
         FEMA technical assistance and enhanced training on how to fund
         and implement mitigation measures proposed in the publications.
         Mitigation needs to be included in the target capabilities list to
         ensure consideration of long-term measures that reduce or
         eliminate hazard risk for all hazards. FEMA’s Mitigation
         Directorate has developed guidance that promotes mitigation
         measures to reduce the risk and effect of natural, technological,
         and manmade hazards. Other DHS components are advancing
         mitigation measures that protect our Nation’s critical infrastructure
         and key resources. However, collaboration among all DHS
         components with a mitigation role is important for three primary
         reasons: (1) to further the development and implementation of a
         risk-based, all-hazards mitigation strategy; (2) to identify resources
         and expertise that can be used to mitigate all-hazards identified in
         state, tribal, and local mitigation plans; and (3) to ensure that the
         $3.45 billion in DHS funds dedicated to mitigation in FY 2009 and
         in the future are used efficiently and effectively.

Recommendations
         We recommend that the Assistant Administrator, Mitigation
         Directorate:

         Recommendation #1: Dedicate resources to provide technical
         assistance and training to state, tribal, and local mitigation officials
         about the Risk Management Series to further promote mitigation
         measures that reduce or eliminate loss of life and property.

         Recommendation #2: Update FEMA 386-7, Integrating
         Manmade Hazards into Mitigation Planning, to include all federal
         funding sources that can be used to implement mitigation measures
         that address technological and manmade hazards.

         Recommendation #3: Include mitigation in the next phase of the
         target capabilities list to ascertain whether communities are
         considering what capabilities are needed to implement long-term
         measures for reducing or eliminating risk from hazards and their
         effects.



              FEMA’s Progress in All-Hazards Mitigation 


                               Page 13

          Recommendation #4: Establish and coordinate a formal network
          of representatives from the Grant Programs Directorate, the
          National Preparedness Directorate, the Science and Technology
          Directorate, the National Protection and Programs Directorate, and
          other federal agencies involved in hazard mitigation to identify
          opportunities, resources, and expertise that can be leveraged to
          implement mitigation projects that address all hazards identified by
          state and local governments.

Management Comments and OIG Analysis

          Recommendation #1: The Office of Policy and Program Analysis
          generally concurred with this recommendation and will ensure that
          the Risk Management Series is promoted through technical
          assistance and training to state, tribal, and local mitigation
          officials. We consider this recommendation resolved because
          initial steps are being taken to implement it; however, it will
          remain open until FEMA provides evidence that it has been fully
          implemented.

          Recommendation #2: The Office of Policy and Program Analysis
          did not concur with our recommendation to update FEMA 386-7 to
          include all federal funding sources that can be used to implement
          technological and manmade mitigation measures for two primary
          reasons: (1) many resources to implement mitigation measures
          that address technological and manmade hazards are outside of
          FEMA; and (2) it would not be appropriate given the purpose of
          this planning document.

          The Office of Policy and Program Analysis explained in their
          response to our draft report that mitigation planning is focused on
          encouraging communities to make and enforce better land use
          planning decisions to ensure that future development is at less risk
          from hazards. Furthermore, FEMA’s primary audience is land use
          planners, floodplain managers, and building code officials. Actual
          implementation of identified mitigation measures goes beyond the
          scope and purpose of the planning effort. FEMA does emphasize
          that communities should not limit mitigation strategies to those
          eligible for particular federal programs, but should have
          comprehensive planning appropriate to its risks. For a community
          interested in federal funding, sources of funding mitigation
          measures that address technological and manmade hazards can be
          found in the Catalog of Federal Domestic Assistance.


              FEMA’s Progress in All-Hazards Mitigation 


                               Page 14

We fully recognize the importance of comprehensive mitigation
planning, but a mitigation plan that has not been implemented is of
little use when a disaster strikes. According to the Post Katrina
Emergency Management Reform Act of 2006, FEMA is to “lead
the Nation’s efforts to prepare for, protect against, respond to,
recover from, and mitigate against the risk of natural disasters, acts
of terrorism, and other man-made disasters.” Providing a list of
federal resources that can be used to implement technological and
manmade mitigation measures in FEMA’s guidance on Integrating
Man-Made Hazards into Mitigation Planning would demonstrate
leadership and help state, tribal and local mitigation professionals
plan for and implement measures that support FEMA’s mission of
protecting the Nation from all hazards. This is particularly
relevant since FEMA’s Office of Policy and Program Analysis
acknowledges that there are programs within FEMA and DHS to
address such hazards. We consider this recommendation
unresolved and open.

Recommendation #3: The Office of Policy and Program Analysis
concurred with this recommendation and FEMA will include
mitigation in the target capabilities list. We consider this
recommendation resolved because steps are being taken to
implement it; however, it will remain open until FEMA provides
evidence that it has been fully implemented.

Recommendation #4: The Office of Policy and Program Analysis
concurred with this recommendation and FEMA will establish and
coordinate a formal network of representative within DHS and
other federal agencies to identify opportunities, resources, and
expertise that can be leveraged to implement mitigation projects
that address all hazards. We believe the FEMA Mitigation
Directorate is well positioned to lead this collaborative effort
because of its extensive network of mitigation partners and its
focus on long-term solutions to address hazards. We consider this
recommendation resolved because steps are being taken to
implement it; however, it will remain open until FEMA provides
evidence that it has been fully implemented.




    FEMA’s Progress in All-Hazards Mitigation 


                     Page 15


        Coordinating an All-Hazards Mitigation Strategy

                 FEMA’s Mitigation Directorate is well positioned to coordinate a risk-
                 based, all-hazards mitigation strategy because of its extensive network of
                 mitigation partners and its focus on long-term solutions to address
                 hazards. To develop this strategy, input from state, tribal, and local
                 governments about all risks and vulnerabilities inherent to their
                 jurisdictions is essential. Mitigation plans for state, tribal, and local
                 governments are not statutorily required for technological or manmade
                 hazards. However, FEMA-approved mitigation plans for natural hazards
                 are statutorily required and incentivized by linking federal mitigation
                 assistance to the plans. Thus, most mitigation plans focus on natural
                 hazards to satisfy statutory requirements and to qualify for disaster
                 assistance and hazard mitigation grants.

                          FEMA’s Network of Mitigation Partners

                          FEMA’s Mitigation Directorate has developed an extensive
                          network of mitigation partners, including federal, state, local, and
                          tribal governments, the private sector, professional associations,
                          nongovernmental groups involved in public policy and
                          administration, the insurance industry, higher education, the
                          building sciences community, and urban planning practitioners. It
                          has more than 200 full-time employees at its headquarters in
                          Washington, DC, and approximately 40 employees in 10 regional
                          offices who support its mitigation mission. FEMA regional office
                          mitigation personnel, along with contractors, provide the bulk of
                          direct technical assistance and planning guidance to jurisdictions
                          that plan and implement hazard mitigation projects.

                          The Mitigation Directorate collaborates with numerous federal
                          agencies to implement both the National Hurricane program10 and
                          the National Earthquake Hazard Reduction program.11 The
                          National Hurricane program, which supports communities and
                          residents at risk from hurricane hazards through various projects,
                          received $5.86 million in funding for FY 2008. The National
                          Earthquake Hazard Reduction program aims to reduce the risks to


10
   The National Hurricane program is a multi-agency partnership involving FEMA, the National Oceanic 

and Atmospheric Administration, the National Weather Service, the U.S. Department of Transportation, 

and the U.S. Army Corps of Engineers. 

11
   The National Earthquake Hazard Reduction program is a collaborative effort among FEMA, the National 

Institute of Standards and Technology, the National Science Foundation, and the United States Geological 

Survey. 


                               FEMA’s Progress in All-Hazards Mitigation 


                                                Page 16

                           life and property from future earthquakes. It received $121.5
                           million in funding for FY 2008.

                           State and tribal hazard mitigation officials play a critical role in
                           advancing FEMA’s mitigation efforts, and their positions are often
                           funded in part by FEMA’s emergency management performance
                           grant program. These officials are primarily responsible for
                           administering federal mitigation grants programs, and coordinating
                           mitigation and planning activities with their local counterparts to
                           prepare mitigation grant applications that are submitted to FEMA
                           regional office staff for review and approval. Local hazard
                           mitigation officials are responsible for identifying local hazards,
                           assessing risks, and implementing mitigation projects. They are
                           also responsible for making the public aware of hazards; adopting,
                           administering, and enforcing land use regulations; conducting
                           mitigation project inspections; and ensuring compliance with
                           hazard mitigation laws.

                           FEMA’s Mitigation Directorate relies on the private sector to
                           underwrite and administer flood insurance policies that are backed
                           by the National Flood Insurance Fund. Private sector contractors
                           also provide local hazard mitigation officials technical expertise
                           and management support to plan and implement mitigation
                           projects. A Midwest state mitigation official told us that
                           approximately 40% of the jurisdictions in her state relied on
                           private sector contractors for mitigation planning, preparing
                           mitigation grant applications, and implementing mitigation
                           projects.

                           FEMA’s Mitigation Directorate interacts with professional
                           associations such as the National Emergency Management
                           Association12 to solicit ideas that help advance its mitigation
                           mission. The association develops policy white papers and
                           recommendations for FEMA and other government and private
                           sector decision makers. A recent white paper underscored the
                           importance of developing a national all-hazards mitigation strategy
                           to counter social, political, and economic realities that drive public
                           choice away from mitigation investments. The white paper noted
                           that a national mitigation strategy should be based on several
                           strategic themes: broader, collaborative partnerships; total hazard

12
  The National Emergency Management Association is composed of emergency management directors
from all 50 states, 8 territories, and the District of Columbia. The primary purpose of the association is to
provide support and expertise for emergency management professionals at all levels of government and the
private sector.

                                 FEMA’s Progress in All-Hazards Mitigation 


                                                   Page 17

awareness at the community level; and a pull approach to
mitigation initiated by communities rather than a federally driven
push-down approach. It recommended five steps for developing
and institutionalizing a national mitigation strategy: (1) form a
national mitigation collaborative consortium; (2) foster innovative
grassroots participation; (3) build a national mitigation knowledge
repository; (4) connect mitigation to other programs; and (5) focus
policies on incentives rather than disincentives to participate.

Educational institutions through DHS’ Homeland Security Centers
of Excellence support FEMA’s mitigation efforts by conducting
research and development on a wide range of mitigation-related
topics such as biological risk assessment, terrorism
countermeasures, decontamination procedures, and port security.
The Homeland Security Centers of Excellence are authorized by
Congress and chosen through a competitive process. Each center
is led by a university in collaboration with partners from other
institutions, agencies, laboratories, think tanks, and the private
sector.

FEMA’s Mitigation Directorate also works with the building
sciences community and nongovernmental organizations such as
the National Institute of Building Sciences, which brings together
representatives of government, industry, labor, and consumer
interests to serve as an authoritative source on building safety and
technologies that mitigate natural, manmade, and technological
hazards. For example, the National Institute of Building Sciences
works on developing barrier technologies, sustainable building
materials, and blast guard window film.

Advancing an All-Hazards Strategy and Local Planning

State, tribal, and local mitigation officials are the frontline
implementers of hazard mitigation projects and are most familiar
with the risks and vulnerabilities inherent to their jurisdictions. To
develop a national risk-based, all-hazards mitigation strategy that
builds capabilities to mitigate natural, technological, and manmade
hazards, FEMA will need input from the frontline implementers.
Garnering this input, however, will be challenging without further
incentivizing the inclusion of all hazards confronting the
jurisdiction into a local hazard mitigation plan.

The Stafford Act and the Disaster Mitigation Act require state,
tribal, and local mitigation plans for natural hazards, and

    FEMA’s Progress in All-Hazards Mitigation 


                     Page 18

                             incentivize the development of these plans through the offer of
                             federal mitigation grants. The Disaster Mitigation Act, which
                             amended the Stafford Act to require local governments to prepare
                             natural hazard mitigation plans as a condition of receiving federal
                             mitigation grants,13 was enacted to address the growing volume
                             and severity of preventable, repetitive losses from natural disasters
                             in the 1990s aggravated by poorly planned local development.
                             Major disasters such as the 1993 floods along the Missouri and
                             Mississippi Rivers, the Northridge Earthquake of 1994, and the
                             increase in wilderness-urban interface fires convinced Congress of
                             the need for natural hazard mitigation planning.

                             The enactment of the Disaster Mitigation Act combined with the
                             Stafford Act represents a trend in the past decade toward a more
                             systematic approach to natural hazard mitigation planning and
                             implementation at all levels of government. However, developing
                             state, tribal, and local mitigation plans that address all hazards
                             inherent to their jurisdictions remains a challenge. Many state and
                             local hazard mitigation officials told us that despite FEMA’s
                             encouragement, all-hazards mitigation planning has not been
                             widely adopted for four primary reasons: (1) All-hazards
                             mitigation planning that includes technological and manmade
                             hazards is not statutorily required; (2) local jurisdictions often rely
                             on contractors to develop mitigation plans, and the scope of the
                             contracts is limited to hazards that qualify for federal grant
                             assistance; (3) natural hazard mitigation planning and projects
                             demand much of their attention and are frequently a state priority;
                             and (4) demonstrating cost-effectiveness for mitigating manmade
                             and technological hazards is too complex and time-consuming.

                             It is important to note that while all-hazards mitigation planning
                             has not been widely adopted, some states and local governments
                             have included technological and manmade hazards in their plans.
                             California’s mitigation plan, developed in 2007, is a good example
                             of a comprehensive plan. It represents a culmination of input from
                             local hazard mitigation plans that identifies 57 natural,
                             technological, and manmade hazards. California mitigation
                             officials told us they prepared a comprehensive plan beyond what
                             is required to obtain FEMA mitigation grants to demonstrate the
                             state’s commitment to reduce or eliminate the impact of disasters,
                             regardless of cause. For example, the plan identifies specific
                             mitigation actions to address hazards associated with climate

13
     The Stafford Act already required state hazard mitigation plans.

                                   FEMA’s Progress in All-Hazards Mitigation 


                                                     Page 19

                         change, such as regulating emissions and adopting mandatory
                         reporting rules for significant sources of greenhouse gases.
                         Projected impacts of climate change include more severe storms
                         and flooding, food and water shortages, increases in the range of
                         insect pests and diseases presently found in tropical areas, and
                         desertification of presently temperate regions.14 Appendix E lists
                         the hazards identified in local hazard mitigation plans for
                         California.

                         Conclusion

                         FEMA’s Mitigation Directorate has an extensive network of
                         mitigation partners, and because it focuses on long-term solutions
                         to address hazards, it is well positioned to coordinate a risk-based,
                         all-hazards mitigation strategy. Input from state, tribal, and local
                         mitigation officials who know the risks and vulnerabilities inherent
                         to their jurisdictions is essential to develop and implement an
                         effective strategy. However, most mitigation plans focus on
                         natural hazards to meet statutory requirements and to qualify for
                         disaster assistance and hazard mitigation grants. Local
                         jurisdictions are not statutorily required to have mitigation plans
                         that address technological and manmade hazards, but they are
                         required to have them for natural hazards and as a condition of
                         receiving federal mitigation grants. A similar incentive for
                         jurisdictions to prepare mitigation plans for all applicable hazards
                         would facilitate the development of a risk-based, all-hazards
                         mitigation strategy.

        Recommendations
                         We recommend that the Assistant Administrator, Mitigation
                         Directorate:

                         Recommendation #5: Use the established network of mitigation
                         partners along with enhanced collaboration with DHS components,
                         other federal agencies, and private sector stakeholders to develop
                         and implement a risk-based, all-hazards mitigation strategy that
                         identifies all hazards inherent to local jurisdictions and establishes
                         a national framework to mitigate these hazards using structural and
                         nonstructural measures.



14
  Intergovernmental Panel on Climate Change, Climate Change 2007: Impacts of Climate Change –
Impacts, Adaptation and Vulnerability – Summary for Policymakers, Working Group II Report, April 2007.

                              FEMA’s Progress in All-Hazards Mitigation 


                                               Page 20


          Matter for Congressional Consideration: Authorize FEMA’s
          Mitigation Directorate to fund mitigation projects that directly
          address technological or manmade hazards and further incentivize
          state, tribal, and local governments to identify and prepare a hazard
          mitigation plan that addresses all-hazards inherent to their
          jurisdictions.

Management Comments and OIG Analysis

          Recommendation #5: The Office of Policy and Program Analysis
          concurred with this recommendation and FEMA will develop and
          implement a risk-based, all hazards mitigation strategy. The full
          implementation of this recommendation is vital and mandated in
          section 503 of the Post Katrina Emergency Management Reform
          Act of 2006: “(b) ALL-HAZARDS APPROACH.—In carrying
          out the responsibilities under this section, the Administrator shall
          coordinate the implementation of a risk-based, all-hazards strategy
          that builds those common capabilities necessary to prepare for,
          protect against, respond to, recover from, or mitigate against
          natural disasters, acts of terrorism, and other man-made disasters,
          while also building the unique capabilities necessary to prepare for,
          protect against, respond to, recover from, or mitigate against the
          risks of specific types of incidents that pose the greatest risk to the
          Nation.’’ We consider this recommendation resolved because
          steps are being taken to implement it; however, it will remain open
          until FEMA provides evidence that it has been fully implemented.




              FEMA’s Progress in All-Hazards Mitigation 


                               Page 21


Implementing an All-Hazards Mitigation Approach
     FEMA’s Mitigation Directorate has 13 statutorily authorized programs,
     including 5 mitigation grant programs that all focus on natural hazards. It
     has one program, the National Dam Safety program, that proactively
     addresses a technological hazard, and none solely dedicated to address
     manmade hazards identified in its Risk Management Series or in state,
     tribal, and local mitigation plans. Natural disasters historically represent
     the greatest loss of life and property, but local mitigation measures that
     address technological and manmade hazards are important to further
     reduce our Nation’s risk and vulnerability.

            Statutorily Authorized Programs Focus on Natural Hazards

            FEMA’s Mitigation Directorate has five hazard mitigation grant
            programs that focus primarily on natural hazards:

            1.   Hazard Mitigation Grant program
            2.   Pre-disaster Mitigation program
            3.   Flood Mitigation Assistance program
            4.   Severe Repetitive Loss program
            5.   Repetitive Flood Claims program

            The Flood Mitigation Assistance program, the Severe Repetitive
            Loss program, and the Repetitive Flood Claims program focus
            solely on flooding. The Hazard Mitigation Grant and Pre-disaster
            Mitigation programs can be used only under certain circumstances
            to help state, tribal, and local mitigation officials implement
            projects that address technological and manmade hazards.

            The Hazard Mitigation Grant program, authorized under Section
            404 of the Stafford Act, was created to reduce the loss of life and
            property caused by natural disasters and is employed only after a
            major Presidential disaster declaration. This program can be used
            to address natural, technological, and manmade hazards following
            a disaster that the President believes has caused damage of such
            severity that it is beyond the combined capabilities of state and
            local governments to respond. For example, the President’s
            disaster declaration for the State of New York following the
            September 11, 2001, terrorist attacks on the World Trade Center
            authorized the use of the Hazard Mitigation Grant program to aid
            New York City’s recovery.



                 FEMA’s Progress in All-Hazards Mitigation 


                                  Page 22

                           The Pre-disaster Mitigation program, in contrast, is intended to
                           fund mitigation planning and projects before a disaster. However,
                           FEMA FY 2009 guidance for the Pre-disaster Mitigation program
                           stipulates that projects that solely address a manmade hazard are
                           ineligible. Yet, it points out that although Pre-disaster Mitigation
                           funds must be used primarily to support projects that address
                           natural hazards, projects and plans also may address hazards
                           caused by manmade events. The guidance, however, does not
                           demonstrate how program funds can be used to primarily address
                           natural hazards in addition to hazards caused by manmade events.
                           Specific examples of how this can be accomplished would help
                           mitigation officials prepare grant applications that address
                           manmade hazards.

                           State mitigation officials told us they are reluctant to include
                           manmade or technological hazards in their applications for the Pre-
                           disaster Mitigation program because it is a competitive program,
                           and it is difficult to perform the required cost-benefit analysis for
                           these hazards. According to FEMA’s Hazard Mitigation Grant
                           program guidance, “Project subapplications that propose ineligible
                           activities will be removed from consideration. FEMA will not
                           separate eligible activities from ineligible project subapplications
                           for funding consideration.” Mitigation officials also said that the
                           amount of funding available from the Pre-disaster Mitigation
                           program is limited and often earmarked by Congress for specific
                           projects. The Pre-disaster Mitigation program was appropriated
                           $114 million in FY 2008 and $90 million in 2009, and earmarks
                           accounted for a total of 37.4% of these funds.

                           The Office of Management and Budget recommends and FEMA
                           requires a benefit-cost analysis for most FEMA mitigation grant
                           programs to promote the efficient allocation of federal dollars.15
                           The objective of the benefit-cost analysis is to compare the net
                           present value of project benefits with project costs, and express
                           this comparison in a ratio of annualized benefits over costs.
                           FEMA requires a positive benefit-cost ratio (i.e., the measurable
                           benefits are greater than the measurable costs) before it approves a
                           mitigation grant application. The benefit-cost analysis, however, is
                           not required for homeland security grants. Instead, FEMA’s Grant
                           Programs Directorate uses a risk-based methodology that is driven
                           90% by risk and 10% by the effectiveness demonstrated in the
                           application. State mitigation officials told us that it is difficult to

15
     Office of Management and Budget, Circular A-94.

                                 FEMA’s Progress in All-Hazards Mitigation 


                                                  Page 23

      perform a cost-benefit analysis on manmade and technological
      hazards because, unlike hazards such as floods, occurrence is
      difficult to predict. Thus, mitigation planning for manmade or
      technological hazards is often deferred to state homeland security
      personnel, and applications submitted to FEMA include only
      natural hazard mitigation measures.

      The National Dam Safety program is the Mitigation Directorate’s
      only program that proactively addresses a technological hazard.
      Congress appropriated this program $7.1 million in FY 2008.
      However, communities frequently have other technological
      hazards that DHS does not consider to be critical infrastructure or
      key resource assets, but that nonetheless represent a concern for
      the community. For example, the mitigation plan for California
      alone identifies 6,000 miles of hazardous liquid pipelines, 21
      refineries, 100 oil and natural gas terminals, and 2,500 “high risk”
      chemical facilities.

      FEMA’s Mitigation Directorate has no mitigation grant program
      dedicated to proactively address manmade hazards identified in its
      Risk Management Series or in state, tribal, and local hazard
      mitigation plans. For example, a mitigation measure introduced in
      the Risk Management Series to reduce the potential for hazardous
      materials entering a building from a ground-level outdoor release
      is to elevate the building’s fresh air intakes and cover them with
      screens to make it more difficult to insert a container of hazardous
      material directly into the building’s heating, ventilating, and air
      conditioning system. Figure 4 illustrates this mitigation measure.

Figure 4. Preventing Hazardous Material From Entering a Building




          FEMA’s Progress in All-Hazards Mitigation 


                           Page 24


Figure 5. Placing Air Intake High on a Building

      Placing a building’s heating,
      ventilating, and air conditioning
      system intakes at the highest
      practical level protects against
      malicious acts and mitigates the risk
      that contaminants released near the
      ground will enter the building
      (figure 5). Many existing buildings
      have air intakes that are at or below
      ground level. For those that have
      below-grade intakes close to the
      building, the intakes can be
      elevated by constructing a plenum
      or external shaft over the intakes.
      An extension height of 12 feet will
      place the intake out of reach of
      individuals without some
      assistance.

      The mitigation measure described above is one of many identified
      in the Risk Management Series that mitigation officials need to
      consider to counter manmade hazards. The implementation of this
      mitigation measure, and others like it, is dependent upon funding.
      State and local mitigation officials told us it is difficult to obtain
      federal funding for mitigation measures that address technological
      and manmade hazards for buildings not considered critical
      infrastructure. Yet the importance of mitigating the risk posed to
      ground-level intake systems was underscored during the trial of
      Nidal Ayyad for the 1993 World Trade Center bombing. Ayyad, a
      naturalized U.S. citizen who worked for a New Jersey chemical
      company, used his position to procure chemicals to manufacture
      the explosive used in the attack. During his trial, it was revealed
      that Ayyad and his associates had stolen cyanide and were
      planning to release it in office-building ventilation systems.

      The risks to public and private buildings from manmade hazards
      are a tremendous challenge for mitigation officials because of the
      sheer number of places Americans congregate daily. The U.S.
      Department of Education reported in 2006 that there were 136,819
      public, private, and postsecondary schools throughout the country;
      the U.S. Census Bureau recorded 6,713 hospitals in 2007; the
      International Council of Shopping Centers recorded 48,695 malls

           FEMA’s Progress in All-Hazards Mitigation 


                            Page 25

and shopping centers in 2005; and the Department of Energy
reported more than 4.5 million commercial buildings in 2003.

To encourage the implementation of hazard mitigation measures
that protect buildings and their occupants, DHS’ Science and
Technology staff are promoting the integration of hazard
mitigation with environmental and energy efficiency planning in a
performance-based design approach. Building designers, owners,
and operators can use this approach to link hazard mitigation with
environmental and energy-saving measures to demonstrate the
efficacy of performance-based projects. For example, blast guard
window film can mitigate the risk of shattered glass caused by a
bomb, hurricane-force wind, or earthquake, as well as reflect heat
from the sun through reflective tinting that lowers energy costs for
air conditioning and improves the building environment.

Natural Hazards Are Predominant But Not the Only Hazards

Natural disasters historically represent the greatest loss to life and
property throughout the United States, as illustrated in figure 6.
There were 75 major disaster declarations in 2008, nearly 70% of
which involved flooding from severe storms. However, terrorism
and hazardous material incidents are also apparent. The September
11, 2001, attacks on New York City and Washington, DC, and the
July 2001 hazardous material train derailment and fire in
Baltimore, Maryland, demonstrate the risk of manmade and
technological hazards. The 2001 anthrax attacks, the 1996
bombing at the summer Olympics in Atlanta, the 1995 destruction
of the Murrah Federal Building in Oklahoma City, and the 1993
World Trade Center bombing all reinforce the need to plan and
implement mitigation measures for manmade hazards. Protecting
American communities from disasters, no matter what the source,
depends on policymakers adopting an integrated, all-hazards
approach to disaster risk reduction, drawing on existing knowledge
from natural and accidental hazards combined with new
information on risks associated with technological and terrorism
events.




    FEMA’s Progress in All-Hazards Mitigation 


                     Page 26


                    Figure 6. Presidential Disaster Declarations




                            The U.S. Department of Transportation reported that in the first
                            quarter of 2009 alone there were 3,306 hazardous material incidents
                            in the United States costing $7.5 million in damages.16 The three
                            states with the most incidents were California (346), Texas (278),
                            and Illinois (280). The Federal Bureau of Investigation reports 318
                            terrorism events in the United States from 1980 to 2005.17 The most
                            frequent attack methods were bombs (209) and arson (43), both of
                            which are a concern for those charged with protecting the Nation’s
                            building inventory and its occupants.




16
     Hazardous Materials Information System, U.S. Department of Transportation.
17
     U.S. Department of Justice, Federal Bureau of Investigation, Terrorism 2002–2005.

                                  FEMA’s Progress in All-Hazards Mitigation 


                                                   Page 27

         Conclusion

         The grant programs administered by FEMA’s Mitigation
         Directorate all focus on natural hazards; only the Hazard
         Mitigation Grant and Pre-disaster Mitigation programs can be used
         under certain circumstances to address technological and manmade
         hazards. The Hazard Mitigation Grant program was used to aid
         New York City’s recovery following the Presidential disaster
         declaration regarding the September 11, 2001, terrorist attacks on
         the World Trade Center. The Pre-disaster Mitigation program can
         be used before a disaster occurs, but mitigation projects that solely
         address manmade hazards are ineligible for grant funds. However,
         the Pre-disaster Mitigation program can be used to address
         manmade hazards if grant funds primarily address natural hazards,
         but program guidance does not provide instruction or examples of
         how this can be accomplished. It does make clear that project
         subapplications that propose ineligible activities will be removed
         from consideration. State mitigation officials are reluctant to
         include technological or manmade hazards in their application for
         the Pre-disaster Mitigation program because it could make their
         application less competitive owing to the benefit-cost ratio
         requirement. Natural disasters are the predominant threat facing
         the United States and warrant great attention, but the threat posed
         by technological and manmade hazards is also apparent and
         reinforces the need for mitigation planning and measures that will
         eliminate or reduce their risk and effect.

Recommendations
         We recommend that the Assistant Administrator, Mitigation
         Directorate:

         Recommendation #6: Provide guidance for the Pre-disaster
         Mitigation Grant program that offers instruction and examples of
         how mitigation officials should prepare grant applications for
         projects that primarily address natural hazards and also address
         hazards caused by manmade forces.

         Recommendation #7: Apply the risk-based methodology used by
         the Grant Programs Directorate for homeland security
         preparedness grants to technological and manmade hazard
         mitigation projects.


             FEMA’s Progress in All-Hazards Mitigation 


                              Page 28

Management Comments and OIG Analysis

          Recommendation #6: The Office of Policy and Program Analysis
          generally concurred with this recommendation and reaffirmed that
          the focus of the Pre-disaster Mitigation program is on addressing
          natural hazards and only cost-effective measures can be funded
          under the program. Furthermore, FEMA believes that it is not
          currently feasible to provide meaningful guidance on cost
          effectiveness for manmade and technological mitigation projects.
          It also responded that FEMA is prohibited by its authorities from
          funding projects that only address manmade hazards through its
          Hazard Mitigation Assistance programs.

          We recognize the imposed constraints relating to the Pre-disaster
          Mitigation program, but the need to employ mitigation measures
          that address technological and manmade hazards is also apparent.
          We believe providing guidance that demonstrates how grant
          applications can be prepared by mitigation officials to effectively
          address hazards beyond just natural hazards will help FEMA fulfill
          its mission of protecting the Nation from all hazards. We consider
          this recommendation resolved because initial steps are being taken
          to implement it; however, it will remain open until FEMA provides
          evidence that it has been fully implemented.

          Recommendation #7: The Office of Policy and Program Analysis
          generally concurred with this recommendation and the Mitigation
          Directorate is evaluating the methodology used by the Grant
          Programs Directorate to address manmade hazards. However, it
          also notes that project funding solely to address technological and
          manmade hazard risks is generally available under federal
          programs and authorities outside FEMA Mitigation Directorate’s
          Hazard Mitigation Assistance grant programs.

          We believe the methodology used by the FEMA Grant Programs
          Directorate for homeland security preparedness grants can be used
          by the Mitigation Directorate to evaluate the effectiveness of
          mitigation projects that address technological and manmade
          hazards. We therefore consider this recommendation resolved
          because initial steps are being taken to implement it; however, it
          will remain open until FEMA provides evidence that it has been
          fully implemented.



              FEMA’s Progress in All-Hazards Mitigation 


                               Page 29

Appendix A
Purpose, Scope, and Methodology
Appendix A: Purpose, Scope, and Methodolgy




                                             The primary objective of our audit was to assess FEMA’s progress
                                             in coordinating the implementation of a risk-based strategy to
                                             reduce or eliminate long-term risks to people and property from all
                                             hazards, including technological and manmade hazards. We
                                             conducted 26 interviews with DHS headquarters and regional staff,
                                             state and local hazard mitigation officials, mitigation consultants,
                                             academic researchers, independent analysts, and other experts in
                                             the field of hazard identification and mitigation. We examined
                                             documentation relating to hazard mitigation, including authorizing
                                             legislation, rules and regulations, and FEMA hazard mitigation
                                             assistance program guidance.

                                             We reviewed DHS documents, including strategic and operational
                                             plans, correspondence, analyses, and reports. We reviewed
                                             mitigation plans from California, Illinois, New Jersey, New York,
                                             and Texas because each state has at least one DHS-designated Tier
                                             I urban area considered to be at high risk for manmade and
                                             technological hazards. We also reviewed reports on various
                                             aspects of manmade and technological hazard mitigation prepared
                                             by the Government Accountability Office, the Congressional
                                             Research Service, the Congressional Budget Office, and various
                                             public policy organizations.

                                             We acknowledge the cooperation and courtesies extended to our
                                             audit team during this audit. We conducted this performance audit
                                             between October 2008 and May 2009 in accordance with generally
                                             accepted government auditing standards. Those standards require
                                             that we plan and perform the audit to obtain sufficient, appropriate
                                             evidence to provide a reasonable basis for our findings and
                                             conclusions based on our audit objectives. We believe that the
                                             evidence obtained provides a reasonable basis for our findings and
                                             conclusions based on our audit objectives.




                                                 FEMA’s Progress in All-Hazards Mitigation 


                                                                  Page 30 

Appendix B
Management Comments to the Draft Report




                             SEP 1 7 2009




   MEMORANDUM FOR:




                             J. Kaufìnan
                       Director
                       Office otPoliçyand Program Analysis




                      FEMA's Progress in All-Hazards Mitigation
Appendix B
Management Comments to the Draft Report




        Page 2

           . The draft report uses the concet of   "phaes" of emergency management, leaving out the
                 "protecon" element, which is crtical to the discusson. Mitigation, Prearedess,
                 Protection, Response and Recover constitute the fuctions of the comprehenive emergency
                 management system, not "phases of the emergency management cycle." These fuctions
                 work collaboratively withn the system, as opposed to dicretely/inependetly in a time-
                 "phased' sequence of a cycle. Th fuctons are correctly represented on pages 10 an 11 of
                 the dra reprt.


             . The drft reprt assumes tht Mitigation is the sole responsibilty of the Mitigation
                 Directorate, and all remmenatons are direced to th FEMA Assistat Administrr for
                 Mitigation. Ho~ever, the Grts Program Directorate adminter programs to protec fr
                 and mitigate against man-made and technologica hazds, whicn is in keeping             with the
                 PKEMRA concept of all-haards mitigation.

        Specific comments on DHS Efforts to Advance All-Hazards Mitigation:

             . The explanation of      the "thee broad categories" of        hazds (p.2) is cotùg, and the
                 confuion is compouned by the example provided which contrdicts the terinology
                 explantion provided with the sae pargrph. Specificaly, if                   "man-made" hazs refer
                 to "crminal" events then Hurcae Katra is an example of a natu and technological
                 (not "man-made") disaster.

             . The draf report makes the cae for terrrism mitigation as a priar focus for mitigation
                 grants rather th a secondar purse for mitigation projects. Terorism "mitigation" is
                 generally focused on protection and prevention (prevention is specficaly defined as
                 mitigation by PKEMRA). Proteve and              prevention measures to mitigate man-made
                 hazs, such as act of terrism, are authorized and fuded by authorities separe and
                 distinct from meaes to mitigate against natul hazds.

             . On Page 13, the draft report stte that the Deparent of              Homeland Securty (OHS) has
                 $3.45 bilion offuds dedicated to Mitigation in FY 2009. Without fier clarfication, ths
                 number is misleading. The sour of ths amount is page 92 of              V olume II of the DHS Futue
                 Year Homeland Securty Program (FYSP). A ver large poron of the amount
                 (approximately $2.826 bilion) is National Flood Insurce Progr Revenue that is required
                 to pay Flood Inurance claims and by law is not available to fud all-hazards mitigation. Of
                 the remaining $694 millon, $215.7 millon is available for Haz Mitigation Assistace
                 (HMA) grants. Ths amount does not include the Haz Mitigation Grant Program
                 allocation, as ths is allocated by disaste and is not a par of'the FYSP.

        Specific comments on Coordinting an All-Hazards Mitigation Strategy:

             . A crtical element of      the Mitigation Directorate's mission is to assist sttes and locas in
                 deterining their mitigation priorities and FEMA's HMA progr is developed arund ths
                 concet. Section 322 of  the Stafford Act specfically requires mitigation planng for natu




                                      FEMA's Progress in All-Hazards Mitigation

                                                            Page 32
Appendix B
Management Comments to the Draft Report




        Page 3



                  hazds. However, HMA grt gudance for plang does perit the inclusion of                    man­
                  mae an technologica hads in mitigation plan if                the state, trbe or loca communty
                  detees it is appropate. Whle one beneft of an approved Hazd Mitigation Plan is

                  avalabilty ofHM asistace, mitigation planng is a larger progr and is intended to
                  assist state, trbes and loc counties in building a comprehenive mitigation prgr.

             . On page 15 it state that the National Hurcae Progr "received $5.86 milion in fuding
                for FY008." The Mitigation Direcrate only reeive an allocation of $1.706 milion for
                  the National Hurcae Progr.

        Specific comments on Implementing an All-Hazrd Mitigation Approach:

             . The FEMA HM grant progrs present a crtica opportty tò reuce the risk to
                  individuas and pr fr na hazds while simultaneously reducing reliance on

                  Feder disaste fuds. FEMA regnze tht ther may be sendar benefts when a
                  projec fuded under the applicable Mitigation auorities has a sendar benefit of
                  mitigatig agat a man-made or technological ha. Although FEMA is prolubited by its
                  autrities frm fuding projec that only address man-made hazs thugh its HMA
                  progrs, other FEMA and DHS progr are available to addrs such hazars.

        FEMA generally concu with six of the drft reprt's seen remmendations. Ou reonses for
        eah recmmention are as follows:

        Remmendaton #1: Dedcate resur to prvide techncal assistace and trg to state, trbal,
        and loca mitigation offcials about the Risk Maagement Seres to fier promote mitigaon
        measures that reduce or eliminate loss of life and prery.

        Response: Concur in par. The Rik Management Seres (RMS) is one of many tools for
        comprehenve techncal asistce and trinng that are available thougout the agency an ar
        avaible to stae, trbal and loca offcis. FEMA wil continue to ensu that the Risk

        Management Seres, along with these other tools, is included in technca asistace and trg to

        state, trbal, and local mitigation offcials to prmote mitigaon mea that reduce or elimiate
        loss of   life and prope.

        Recommendation #2: Update FEMA 386-7, Integrating Man-Made Hazards into Mitigation
        Planning, to inlude all feder fuin sour tht ca be used to implement mitigation meaes

        tht addrs teological and man-made hazds


        Response: Nonconcur. Since many such resur ar outside of FEMA and given the pure of

        ths Plang document, we do not believe ths is appropriate. Mitigation plang is focused on
        encourgig communties to make and enforce better land use planing decision to en that

        futue development is at les risk frm hazds. Ou primar audience ar land us planer
        floodplai manager, and buildig code offcis. Actal implementation ofidentified mitigation

        meaur goe beyond the scpe and purose of     the planng effort. FEMA also emphasizes tht
        communties should not limit mitigation stategies to those eligible for parcuar feder progrs,




                                      FEMA's Progress in All-Hazards Mitigation

                                                             Page 33

Appendix B
Management Comments to the Draft Report




        Page 4

        but should have comprehenive plang appropriate to its risks. For a communty interested in
        federal fuding sour of fuding for mitigation meaures that addr technologica and man-

        made hads ca be found in the Catalog of            Federal Domestic Assistace.



        Recommendation #3: lncludemitigation in the next phase of          the taget capabilties list to asce
        whether communties are considerng what capabilties ar neeed to implement long-ter meaures
        for reducig or eliminatg risk from hazds an their effects.

        Response: Concu. Th work is curently in progr.

        Recmmendation #4: Estalish an coordinate a formal network of representatives from the Grats
        Program Directorate, the National Preparednes Directorate, the Science and Technology
        Dirtora the Nationa Protection and Progrs Directrate and other federal agenes involved in

        ha mition to identify opportties, resurces, and expese tht can be leveraged to
        implement mitigaion projects that addrss all ha identified by state and local goverents.



        Response: Concu. Ths work is in progress.

        Recommendation #5: Use the established netork of mitigation parer along with enance

        collaboraon with DHS components, other federal agencies, and private sector staeholder to
        develop and implement a risk-based, all.hazds mitigation sttegy th identiñes all hiars

        inert to locjunsdictions and establishes a nationa framework to mitigate these hazs usg
        strct and non-strct meaures.


        Response: Concu. Much of ths has alreay bee accomplished. FEMAparcipates in the
        National Science and Technology Council Subcottee for Disater Reduction. Ths body is par

        of   the inergeny coordination proce to leverage prgr and capabilties acrss the Federal
        family. In adition, FEMA worked with the National Emergency Management Association to

        deelop the Whte Paper, Recommendations for an Effective National Mitigation Effort. Building
        Stronger Partnership, Increased Resilience, and Disaster Resistance for a Safer Nation, which
        idenfies the nee for devloping broader collaborative parer.srnps to addres ail-haiar

        mitigation.

        Recmmendaton #6: Provide gudance for the Pre-isater Mitigation Grt progr tht offer

        inction and examples of          how mitigation offcials should preare grant applications for projec
        that pnmly addres natal haiars and also address hads caused by man-made forces.



        Response: Concu in par. FEMA has accplished ths in par thugh our existg wid and

        seismc mitigation prjec which by design also contrbute mitigation benfits for ma-made and
        technologica hazards. In general, however, Pre-disaer Mitgation (PDM) is authorize under
        Section 203(b) of the Stafford Act to fud mitigation activities identiñed in mitigation plan with
        respect to natual hads, and only cost-effectve meaures can be fuded under the progr. The
        foc of FEMA gudace for PDM is on addresing the risk from natu hazs that is the prima
        purse of      the program; however, it is not curently feible to provide meangñ gudace on cost
        effectveness for ma-made and technological mitigation prjecs.




                                    FEMA's Progress in All-Hazards Mitigation

                                                           Page 34
Appendix B
Management Comments to the Draft Report




        Page 5

        Recmmendation #7: Apply the risk-based methodology used by the Grants Program Dirctorate
        for homeland secty prardnes grts to technological and man-made haz mitigation

        projec.
        Response: Concu in par. In coordination with GPO an NPD, Mitigation is evuati ths

        metodology that is cuently limited to man-made haz. Curtly, project fuding solely to

        addres tehnological and ma-made hazard risks are generally available under federal progrs and
        authorities outside FEMA Mitigation Directorate's HM grt programs.

        Than you aga for the opportty to comment on ths draft re and we look forwar to working

        with you on other isses as we both stve to improve FEMA.




                             FEMA's Progress in All-Hazards Mitigation

                                               Page 35
Appendix C
List of Publications From FEMA’s Risk Management Series
Appendix C: FEMA Risk Management Series Publications




                                       •		 FEMA 389, Communicating with Owners and Managers of New Buildings on
                                           Earthquake Risk: A Primer for Design Professionals, January 2004

                                       •		 FEMA 395, Incremental Seismic Rehabilitation of School Buildings (K-12):
                                           Providing Protection to People and Buildings, June 2003

                                       •		 FEMA 396, Incremental Seismic Rehabilitation of Hospital Buildings: Providing
                                           Protection to People and Buildings, December 2003

                                       •		 FEMA 397, Incremental Seismic Rehabilitation of Office Buildings: Providing
                                           Protection to People and Buildings, December 2003

                                       •		 FEMA 398, Incremental Seismic Rehabilitation of Multifamily Apartment
                                           Buildings: Providing Protection to People and Buildings, February 2004

                                       •		 FEMA 399, Incremental Seismic Rehabilitation of Retail Buildings: Providing
                                           Protection to People and Buildings, July 2004

                                       •		 FEMA 400, Incremental Seismic Rehabilitation of Hotel and Motel Buildings,
                                           April 2005

                                       •		 FEMA 424, Design Guide for Improving School Safety in Earthquakes, Floods,
                                           and High Winds, January 2004

                                       •		 FEMA 426, Reference Manual to Mitigate Potential Terrorist Attacks Against
                                           Buildings, December 2003

                                       •		 FEMA 427, Primer for Design of Commercial Buildings to Mitigate Terrorist
                                           Attacks, December 2003

                                       •		 FEMA 428, Primer to Design Safe School Projects in Case of Terrorist Attacks,
                                           December 2003

                                       •		 FEMA 429, Insurance, Finance, and Regulation Primer for Terrorism Risk
                                           Management in Buildings, December 2003

                                       •		 FEMA 430, Site and Urban Design for Security Guidance Against Potential
                                           Terrorist Attacks, December 2007

                                       •		 FEMA 433, Using HAZUS-MH for Risk Assessment: How-To Guide, August 2004

                                       •		 FEMA 452, A How-To Guide to Mitigate Potential Terrorist Attacks Against
                                           Buildings, January 2005


                                                             FEMA’s Progress in All-Hazards Mitigation 


                                                                              Page 36


Appendix C
List of Publications From FEMA’s Risk Management Series

   •		 FEMA 453, Safe Rooms and Shelters – Protecting People Against Terrorist
       Attacks, May 2006

   •		 FEMA 454, Designing for Earthquakes: A Manual for Architects, December 2006

   •		 FEMA 455, Rapid Visual Screening for Building Security, Publishing pending

   •		 FEMA 459, Incremental Protection for Existing Commercial Buildings from
       Terrorist Attack, April 2008

   •		 FEMA 543, Design Guide for Improving Critical Facility Safety from Flooding
       and High Winds: Providing Protection to People and Buildings, January 2007

   •		 FEMA 577, Design Guide for Improving Hospital Safety in Earthquakes, Floods,
       and High Winds, June 2007




                         FEMA’s Progress in All-Hazards Mitigation 


                                          Page 37


Appendix D
National Planning Scenarios Identified in the National Response
Framework
Appendix D: National Planning Scenarios outlined in the National Response Framework




                                                                                      Key Scenario Sets                         National Planning Scenarios

1. Explosives Attack – Bombing Using                                                                                   Scenario 12: Explosives Attack – Bombing
Improvised Explosive Device                                                                                            Using Improvised Explosive Device



2. Nuclear Attack                                                                                                      Scenario 1: Nuclear Detonation – Improvised
                                                                                                                       Nuclear Device



3. Radiological Attack – Radiological                                                                                  Scenario 11: Radiological Attack –
Dispersal Device                                                                                                       Radiological Dispersal Device



4. Biological Attack – With annexes for                                                                                Scenario 2: Biological Attack – Aerosol
different pathogens                                                                                                    Anthrax
                                                                                                                       Scenario 4: Biological Attack – Plague
                                                                                                                       Scenario 13: Biological Attack – Food
                                                                                                                       Contamination
                                                                                                                       Scenario 14: Biological Attack – Foreign
                                                                                                                       Animal Disease



5. Chemical Attack – With annexes for                                                                                  Scenario 5: Chemical      Attack – Blister Agent
different agents                                                                                                       Scenario 6: Chemical      Attack – Toxic
                                                                                                                       Industrial Chemicals
                                                                                                                       Scenario 7: Chemical      Attack – Nerve Agent
                                                                                                                       Scenario 8: Chemical      Attack – Chlorine Tank
                                                                                                                       Explosion



6. Natural Disaster – With annexes for                                                                                 Scenario 9: Natural Disaster – Major
different disasters                                                                                                    Earthquake
                                                                                                                       Scenario 10: Natural Disaster – Major
                                                                                                                       Hurricane



7. Cyber Attack                                                                                                        Scenario 15: Cyber Attack



8. Pandemic Influenza                                                                                                  Scenario 3: Biological Disease Outbreak –
                                                                                                                       Pandemic Influenza




                                                                                                   FEMA’s Progress in All-Hazards Mitigation 


                                                                                                                    Page 38 

Appendix E
Hazards Identified in Local Hazard Mitigation Plans for the State of
California, October 2007
Appendix E: Hazards Indentified in Local Hazard Mitigation Plans for the State of California, October 2007




Agriculture                                                                                                               Insect Hazards
Arson/Commercial Fire                                                                                                     Landslides
Avalanche                                                                                                                 Large Venue Fires
Biological/Health Emergency                                                                                               Liquefaction
Blackout                                                                                                                  Mass Casualty
Civil Unrest                                                                                                              Mine Safety
Coastal Erosion                                                                                                           Multi-Hazard
Coastal Storm                                                                                                             Nuclear Power Plant Accident
Dam/Levee Failure                                                                                                         Propane Distribution Facilities
Data Telecommunications                                                                                                   Radiological Incident/Accident
Drought                                                                                                                   Severe Weather
Earth Movement                                                                                                            Sinkholes/Subsidence
Earthquake                                                                                                                Soil Hazards
Economic Disruption                                                                                                       Snow Storm
Energy Emergency                                                                                                          Special Events
Explosions                                                                                                                Substations
Explosive Manufacturing & Storage                                                                                         Technological Failure
Extreme Heat                                                                                                              Terrorism
Fire                                                                                                                      Tornados
Flooding                                                                                                                  Toxic Pollution
Fuel Release                                                                                                              Transportation Incident (incl. Train & Airplane)
Geologic Hazard                                                                                                           Tsunami
Ground shaking                                                                                                            Unexploded Munitions
Groundwater Contamination                                                                                                 Utility Loss
HAZMAT                                                                                                                    Volcanoes
High/Straight Line Winds                                                                                                  Water/Wastewater Disruption
Human Caused                                                                                                              Wildfire
Infrastructure (Pipeline, Aqueduct)                                                                                       Windstorms
Jail/Prisons Event




                                                                                                             FEMA’s Progress in All-Hazards Mitigation 


                                                                                                                              Page 39


Appendix F
Major Contributors to This Report
Appendix F: Major Contributors to this Report




                                                Norman Brown, Director, Preparedness and Mitigation Division,
                                                Office of Emergency Management Oversight

                                                Craig Anderson, Auditor-in-Charge, Preparedness and Mitigation
                                                Division, Office of Emergency Management Oversight

                                                Aaron Naas, Program Analyst, Preparedness and Mitigation
                                                Division, Office of Emergency Management Oversight




                                                    FEMA’s Progress in All-Hazards Mitigation 


                                                                     Page 40


Appendix G
Report Distribution
Appendix G: Report Distribution




                                  Department of Homeland Security

                                  Secretary
                                  Deputy Secretary
                                  Chief of Staff for Operations
                                  Chief of Staff for Policy
                                  General Counsel
                                  Executive Secretary
                                  Director, GAO/OIG Liaison Office
                                  Assistant Secretary for Office of Policy
                                  Assistant Secretary for Office of Public Affairs
                                  Assistant Secretary for Office of Legislative Affairs
                                  FEMA Administrator
                                  Assistant Administrator, FEMA Mitigation Directorate
                                  FEMA Audit Liaison (DP8R07)
                                  FEMA Grant Programs Directorate
                                  FEMA National Preparedness Directorate
                                  Science and Technology Directorate
                                  National Protection and Programs Directorate

                                  Office of Management and Budget

                                  Chief, Homeland Security Branch
                                  DHS OIG Budget Examiner

                                  Congress

                                  Congressional Oversight and Appropriations Committees, as
                                  appropriate




                                      FEMA’s Progress in All-Hazards Mitigation 


                                                       Page 41


ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this report, please call the Office of Inspector General (OIG) at (202) 254-4100,
fax your request to (202) 254-4305, or visit the OIG web site at www.dhs.gov/oig.


OIG HOTLINE

To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal or noncriminal
misconduct relative to department programs or operations:

• Call our Hotline at 1-800-323-8603;

• Fax the complaint directly to us at (202) 254-4292;

• Email us at DHSOIGHOTLINE@dhs.gov; or

• Write to us at:
       DHS Office of Inspector General/MAIL STOP 2600,
       Attention: Office of Investigations - Hotline,
       245 Murray Drive, SW, Building 410,
       Washington, DC 20528.


The OIG seeks to protect the identity of each writer and caller.
